REVIEWS OF THE ANNUAL ACCOUNTING OF

  DRUG CONTROL FUNDS AND RELATED

            PERFORMANCE

         FISCAL YEAR 2013


          U.S. Department of Justice

        Office of the Inspector General


                Report 14-07

                January 2014

         REVIEWS OF THE ANNUAL ACCOUNTING OF

      DRUG CONTROL FUNDS AND RELATED PERFORMANCE

                    FISCAL YEAR 2013



                           EXECUTIVE SUMMARY


       This report contains the attestation review reports of the U.S. Department of
Justice’s Assets Forfeiture Fund, Criminal Division, Drug Enforcement
Administration, Federal Bureau of Prisons, Office of Justice Programs, Offices of the
United States Attorneys, Organized Crime Drug Enforcement Task Forces Program,
and United States Marshals Service’s annual accounting of drug control funds and
related performance for the fiscal year ended September 30, 2013. The Office of the
Inspector General performed the attestation reviews. The report and annual
detailed accounting of funds obligated by each drug control program agency is
required by 21 U.S.C. §1704(d), as implemented by the Office of National Drug
Control Policy Circular, Accounting of Drug Control Funding and Performance
Summary, dated January 18, 2013. The Department of Justice components
reviewed, reported approximately $7.5 billion of drug control obligations and 19
related performance measures for fiscal year 2013.

       The Office of the Inspector General prepared the attestation review reports in
accordance with attestation standards contained in Government Auditing
Standards, issued by the Comptroller General of the United States. An attestation
review is substantially less in scope than an examination and, therefore, does not
result in the expression of an opinion. We reported that nothing came to our
attention that caused us to believe the submissions were not presented, in all
material respects, in accordance with the requirements of the Office of National
Drug Control Policy Circular, and as otherwise agreed to with the Office of National
Drug Control Policy.
